<html>
<title> - THE NATIONAL PARK SERVICE'S REVISED DRAFT MANAGEMENT POLICIES</title>
<body><pre>[Senate Hearing 109-313]
[From the U.S. Government Printing Office]



                                                 S. Hrg. 109-313, Pt. 2
 
     THE NATIONAL PARK SERVICE'S REVISED DRAFT MANAGEMENT POLICIES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

    RECEIVE TESTIMONY ON THE NATIONAL PARK SERVICE'S REVISED DRAFT 
                          MANAGEMENT POLICIES

                               __________

                             JUNE 20, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-087                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
                                     ROBERT MENENDEZ, New Jersey

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................    14
Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     2
Healey, Maureen A., Executive Director, Personal Watercraft 
  Industry 
  Association....................................................    21
Kiernan, Thomas C., President, National Parks Conservation 
  Association....................................................     8
Martin, Stephen P., Deputy Director, National Park Service, 
  Department of the Interior.....................................     4
Salazar, Hon. Ken, U.S. Senator from Colorado....................     3
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1


     THE NATIONAL PARK SERVICE'S REVISED DRAFT MANAGEMENT POLICIES

                              ----------                              


                         TUESDAY, JUNE 20, 2006

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. The committee will come to order. We're 
going to have to manage ourselves a little bit this afternoon. 
There are a couple of votes that are going to go on here 
shortly, but we'll be able to work around that and I hope to 
continue the hearing right on until its completion.
    Thank you all for being here. I want to welcome Deputy 
Director Steve Martin from the National Park Service and Mr. 
Tom Kiernan from the National Park Conservation Association to 
today's subcommittee hearing.
    The purpose of this hearing is to receive testimony on the 
proposed revisions to the management policies that guide the 
day-to-day workings of the National Park Service.
    I cannot emphasize the importance of management policies 
enough for setting a tone that influences the attitudes of park 
employees from the Washington headquarters to each of the seven 
regions and to 390 parks throughout the system. So it is a very 
important position.
    The basic policy of maintaining national parks unimpaired 
for the enjoyment of future generations was established in the 
1916 Organic Act. This founding principle has been conveyed to 
the public and the park service employees in various directors' 
orders, speeches, regulations and other documents for the past 
90 years. We must ensure that it remains the foundation of the 
National Park Service for the generations to come. This 
administration has set out to change the management policies in 
August 2005 and faced some strong public and congressional 
opposition to the initial draft. Specific concerns were 
identified in the hearing of the subcommittee last November 
through public comment that ended in 2006. Many comments 
focused on the definition of impairing, the definition of 
impairment and the relationship between the use of the 
conservation of resources.
    The Secretary of the Interior, Gail Norton, settled the 
debate on March 17, 2006, in a letter, when she stated that 
when there is a conflict between the production of resources 
and use, conservation is predominant. Revision of the 
management policies got off to a rocky start, as usual, and 
there was great discussion about them, but in November, the 
Park Service has listened and responded to the concerns of the 
public and to Congress and I want to thank them for that. I 
look forward to hearing the testimony on this important issue. 
So, thank you,
    Senator Alexander.

        STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Alexander [presiding]. Thank you, Mr. Chairman. 
This is an example of several people, in my opinion, doing 
their jobs well. And as the chairman goes out to vote, I want 
to say this subcommittee's work has been a good example of 
that, because the oversight that we've engaged in, I think, has 
been constructive. The Park Service could have gone about its 
own management policies and just done it and then we could have 
complained it and tried to pass a piece of legislation, which 
we might have done. But instead of that, Chairman Thomas held 
oversight hearings, and we were able to have our say, so I 
thank him for that. I also want to compliment Steve Martin of 
the National Park Service and Secretary of the Interior Dirk 
Kempthorne. The National Park Service has proved to be a good 
listener and Secretary Kempthorne is there. We're off to a good 
start.
    The earlier revisions of the Park Management Policies 
dramatically revised, in my judgment, the 2001 amendments and 
raised serious concerns about conservation and air quality, as 
well as visual and noise pollution in our parks, and several of 
us in Congress, on both political sides of the aisle, were very 
concerned about those amendments and said so. But the Park 
Service, as I said, turned out to be a good listener. They 
spent a lot of time, not just with us, but with--and I'm sure 
we'll hear more about this in testimony, but with the public 
and hearings all around the country. After considering our 
comments and those of the public, the Park Service has now 
produced a draft that appears to be consistent with the Federal 
laws that founded the national parks and, at the time, makes 
what appear to be necessary, common-sense improvements to the 
2001 policies, which should make it easier for supervisors to 
manage park properties in consistent and appropriate ways. I 
especially appreciate the clarity of Secretary Kempthorne in 
his announcement yesterday when he said, as Chairman Thomas 
mentioned, that when there is a conflict between conserving 
resources unimpaired for the future generations and the use of 
those resources, conservation would be predominant. That's what 
the folks in and around the Great Smoky Mountains National 
Park, where I live, want to hear and that's what I'm glad to 
hear.
    I also would like to extend my thanks to the National Parks 
Conservation Association, which has been a big help in this 
project. They're not elected, as we are, and they are not 
appointed, as Mr. Martin is, but they care about the parks and 
they include a great many Americans. They waved a yellow flag 
and a couple of red flags, but they didn't just stop there and 
send out a fundraising letter, they made very constructive, 
specific comments and then when the National Park Service came 
up with a substantially improved draft, they gave them a pat on 
the back. As I mentioned earlier, a virtue is its own reward 
and a pat on the back is a nice thing to have when it's 
deserved and I think in this case, it is deserved. So I look 
forward, Mr. Martin and Mr. Kiernan, to hearing your comments 
today. I thank the chairman, and I think the people are better 
off as a result of this extensive process you've gone through. 
And I believe the Congress has done a pretty good job of 
overseeing this case.
    Senator Salazar.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you, Senator Alexander. I, too, want 
to give my compliments to Senator Thomas and to this committee 
and subcommittee for having worked on this issue for the last 
year. I also want to extend my gratitude and appreciation to 
the Department and to Mr. Martin and all of those who have been 
involved in taking a serious look at this issue.
    For me, at the end of the day, I think what we have here is 
an example of bipartisan participation and the executive branch 
working with the members of the Senate and the House who had 
concerns about the initial drafts. And I think we ought to have 
more examples where we are able to find these very difficult, 
sometimes contentious issues and work through them to a result. 
That is a good result for the purpose that we are here for.
    In this case, I think the purpose we are here for on this 
Parks Committee and the reason the parks exist is to make sure 
that we are passing on these crown jewels, not only for our 
enjoyment, but also for the enjoyment of our children and 
future generations. And certainly Senator Alexander has been a 
leader in doing it not only in Tennessee, but also around the 
United States. So I'm very pleased that the National Park 
Service has, in fact, taken into account and consideration the 
comments from this committee, as well as from the entire 
public.
    I was particularly impressed yesterday, during the press 
conference, when Secretary Kempthorne set forth what he 
considered to be the principles guiding the National Park 
Service and its policies. Out of the ten points that he 
included in his press release, I think the first three of those 
points are worthwhile just to repeat here for the record.
    He said--and this is part of the document that was part of 
the press release entitled, ``Key Principles Guiding the 
National Park Services Development of the 2006 Management 
Policies''--point No. 1: A key tenet of park management is 
preventing the impairment of national and cultural resources. 
Point two: When there is a conflict between the protection of 
resources and use, conservation will be predominant. Point No. 
3: Park resources should be passed on to future generations in 
a better condition than currently exists. I think that in those 
three points, Secretary Kempthorne captured what really was a 
driving motivation between--for the criticisms that we were 
giving to the previous drafts of the policy and that is, that 
we stand firmly behind the Organic Act of 1916 and the concept 
and doctrine that has been followed for parks management to do 
no harm. So I appreciate all that you have done. I appreciate 
Senator Alexander's and Senator Thomas' leadership on this 
issue as well.
    Senator Alexander. Thank you, Senator Salazar. We also 
should acknowledge the work of Tom Lillie and David Brooks, 
staff members who've worked hard on this issue.
    [The prepared statement of Senator Salazar follows:]

   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado

    Thank you, Mr. Chairman and Ranking Member Akaka. I appreciate 
having another opportunity to discuss proposed changes to the National 
Park Service's management policies.
    At the end of a very long and difficult process, I am happy to see 
that we have returned to a draft of the Management Policies that 
closely resembles the 2001 Policies.
    Members of the public, Park Service employees, retirees, and park 
advocates have been overwhelming in their support for the bedrock 
principles of resource protection in the Parks. People want the air, 
sounds, and scenic views of their Parks protected.
    They want uses carefully monitored to ensure they are not damaging 
Park resources. They want wilderness lands protected and preserved. And 
they want clear, consistent, and stable management of our Parks so that 
our children and grandchildren may enjoy the same wonders we experience 
today when we visit one of America's 58 National Parks.
    While I am pleased that this process has ultimately restored and 
strengthened the management principles in the 2001 Policies, I still 
wonder why this process was necessary in the first place.
    The Park Service has devoted a lot of time and taxpayer resources 
to the various drafts of these policies. In a budget climate that is 
forcing cuts to visitor services and neglect of park infrastructure, 
wouldn't taxpayer dollars have been better spent elsewhere? After all, 
after numerous revisions of the management policies, we have basically 
returned to the core principles in the 2001 Policies.
    I do want to commend the Park Service for its willingness to 
consider public comments and make changes to previous drafts.
    The steady guidance of people like Denny Galvin and Senator 
Alexander, along with organizations like the National Parks 
Conservation Association and the Coalition of National Park Service 
Retirees, helped expose the flaws of earlier drafts and restore the 
``do no harm principle.'' Thanks to their support of the Park Service 
and the Parks, we have made lemonade from the lemons of Paul Hoffman's 
draft last year.
    I would ask that as you circulate this latest draft with career 
Park Service employees for their feedback, that you also make it 
available to the public for scrutiny and comment. The more public 
comment we gather on these policies, it seems, the more we affirm the 
Park Service's mandate to protect the parks' extraordinary resources.
    Mr. Chairman, I thank you again for holding this hearing and I look 
forward to the testimony of the witnesses.
    Thank you.

    Senator Alexander. Now, we're anxious to hear from Mr. 
Martin and Mr. Kiernan. Why don't we start with Mr. Martin. We 
have your testimony. If you would like to summarize it in 5 to 
7 minutes, that would be fine. Then we'll ask questions and 
Chairman Thomas will be back after he votes and we'll continue 
the hearing. But we want to hear what you have to say, so 
welcome and we look forward to it.

   STATEMENT OF STEVE MARTIN, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Martin. Well, thank you and thank for the opportunity 
to appear before your subcommittee to discuss the revisions to 
the National Park Service Management Policies. And like you 
brought up, I would like to just summarize my testimony and I 
will submit my full comments for the record.
    Senator Alexander. They will be included in the record.
    Mr. Martin. On June 19, 2006, Director Fran Mainella of the 
National Park Service released a final review document of the 
management policies for all employees. We believe that the 
revised draft policies are a significant improvement over the 
draft released in 2005 and will improve upon the 2001 
management policies. I want to thank you and this committee for 
the interest that you have shown in this issue and the support 
you have given for the positive resolution of this matter.
    Since the last hearing before this subcommittee, we 
received nearly 50,000 comments on the proposed policy 
revisions. The public comment period ran for 127 days and the 
draft was reviewed by interested individuals and groups, park 
service employees, the Department, and Federal agencies, with a 
lot of support and interest from the Senate, from the House and 
from key groups like the National Parks Conservation 
Association and many others. We wanted to assure that the 
process of comment and evaluation was thorough. We assembled a 
group of National Park Service employees that included park 
superintendents, managers, program specialists, and the 
National Park Service Advisory Board, to incorporate the 
comments that would improve upon the 2001 policies. We believe 
it is very important for our employees to have a final 
opportunity to make sure that this document is as accurate and 
useful as possible. That is why it is out for an additional 
employee review. We anticipate making final changes in late 
July, and preparing the document for approval by the director 
in August sometime. We have also placed the draft on our 
website, where it can be obtained by any interested party.
    It is also notable that Secretary of the Interior 
Kempthorne participated in the release of the final draft. His 
remarks included clear language on the overarching mission of 
the National Parks, including when there is a conflict between 
conserving resources unimpaired for future generations and the 
use of those resources, conservation will be predominant.
    We would like to emphasize that the revisions were 
considered only if they met basic principles that were adopted 
by our career employees in the Park Service and other 
leadership. These principles are contained in the draft 
policies and include key points of how policies--these policies 
were revised and how future policies should be revised and 
those--all of those points can be found within the document 
itself.
    But we would like to unequivocally confirm to the American 
people that the fundamental purpose and mission of the National 
Park Service as stated in the 1916 Organic Act will be upheld 
and we believe that the revised management policies will help 
the National Park Service fulfill its role as a leader of 
resource stewardship and in providing opportunities for visitor 
enjoyment and as a model for other nations in how to protect 
special places unimpaired for future generations.
    That concludes my statement and I would look forward to 
answering any questions.
    [The prepared statement of Mr. Martin follows:]

Prepared Statement of Stephen P. Martin, Deputy Director, National Park 
                  Service, Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
subcommittee to discuss the revisions to the National Park Service 
(NPS) Management Policies. This is the third Congressional hearing held 
on these revisions, and we are pleased to report that significant 
progress has been made since our last hearing. On June 19, 2006, the 
Director of the National Park Service released a final review document 
to all employees. We believe that the revised draft policies are a 
significant improvement and will provide useful guidance to our park 
managers.
    Since the last hearing before this subcommittee on November 1, 
2005, we received nearly 50,000 comments on the proposed policy 
revisions. The public comment period ran for 127 days, and the draft 
was reviewed by interested individuals and groups, NPS employees, the 
Department, and other federal and state agencies.
    The number and content of the comments reflected a strong public 
interest in our national parks and how they are managed. The comments 
repeatedly stressed the vitality and relevancy of the Organic Act and 
that the Act must be honored in the management of our National Parks. 
We heard that our mission to protect parks was of paramount importance. 
We received many good suggestions from the public, NPS employees, and 
others that helped clarify various portions of the document.
    We want to assure you that the process of comment evaluation was 
thorough. Comments were consolidated by career policy specialists and a 
private firm which was retained to assist with the large volume of 
comments. We then assembled a group of NPS employees that included park 
superintendents, managers, and program specialists. This knowledgeable 
team reviewed, discussed, and incorporated the comments. The revised 
draft was then further reviewed by the NPS National Leadership Council. 
Following that approval, a special committee of the NPS Advisory Board 
met with key NPS staff to discuss the revised policies. On the 
recommendation of the special committee, the revised draft policies 
were endorsed by the full NPS Advisory Board on June 9, 2006.
    The Director released the revised draft policies to all NPS 
employees for final comment on June 19, 2006. We also have placed a 
courtesy copy on our web site for viewing by any interested party. 
Although the employee review will take an additional three weeks, we 
believe it is very important for our employees to have a final 
opportunity to double check the review process and make sure that this 
document is as accurate and useful as possible. We anticipate final 
approval by the Director in August.
    As the Deputy Director, I am very pleased with this document. We 
believe that the revised draft is an improvement in content, tone, and 
clarity over the 2001 and the earlier 2005 draft. We would like to 
emphasize that revisions were considered only if they met basic 
principals that were adopted by our career employees. We believe that 
these principals are so fundamental that they should guide any future 
management policy changes.
    The policies must--

  <bullet> Comply with current laws, regulations, and Executive Orders,
  <bullet> Prevent impairment of park resources and values,
  <bullet> Assure that conservation will be predominant when there is a 
        conflict between protection of resources and their use,
  <bullet> Maintain NPS responsibility for making decisions and for 
        exercising key authorities,
  <bullet> Emphasize consultation and cooperation with local, state, 
        Tribal, and federal entities,
  <bullet> Support pursuit of the best contemporary business practices 
        and sustainability,
  <bullet> Encourage consistency across the system--``one'' National 
        Park System,
  <bullet> Reflect NPS goals and a commitment to cooperative 
        conservation and civic engagement,
  <bullet> Employ a tone that leaves no room for misunderstanding the 
        NPS's commitment to the public's appropriate use and enjoyment, 
        including education and interpretation, of park resources, 
        while preventing unacceptable impacts,
  <bullet> Pass onto future generations natural, cultural, and physical 
        resources that meet desired conditions better than they do 
        today, along with improved opportunities for enjoyment.

    I would like to illustrate several key areas where the revised 
draft provides greater emphasis and clarity from the 2001 policy 
document.
    We unequivocally confirm to the American people that the 
fundamental purpose and mission of the NPS as stated in the 1916 
Organic Act is to ``. . . promote and regulate the use of the Federal 
areas known as national parks, monuments, and reservations hereinafter 
specified by such means and measures as conform to the fundamental 
purposes of the said parks, monuments, and reservations, which purpose 
is to conserve the scenery and the natural and historic objects and the 
wildlife therein and to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.'' Since passage of the Act, the NPS 
has established itself as a world leader in protected area management. 
We believe that these revised draft policies inspire and guide managers 
to follow that tradition.
    The revised draft policies are committed to civic engagement and 
cooperative conservation at all levels of park management. This revised 
draft emphasizes to our managers that decisions based on sound public 
input are better for parks and more supportive of surrounding 
communities.
    The management of parks is recognized as a serious business 
enterprise that must be continually improved by professional 
management. This ensures that the American taxpayer is well-served by 
managers using the best business practices. These revised draft 
policies make a strong commitment to workforce and business practices 
improvement.
    The revised draft policies provide additional guidance on the 
important relationships between parks and Native Americans. The revised 
draft is respectful of tribal sovereignty and more explicitly expresses 
our commitment to a positive government-to-government relationship 
between parks and tribes.
    The revised draft policies further recognize the importance of 
clean air and water as well as soundscapes and lightscapes. These 
resources help make each park unique and special in today's more 
crowded world. The revised draft policies allow for managers to review 
the variety of possible park resources and values, account for each 
park's specific legislation, and encourage working with neighbors and 
other land management agencies.
    The revised draft policies recognize that we must not allow uses or 
threats to park resources to even approach the level of impairment. The 
manager will use professional judgment and science to determine when a 
proposed or existing use may be leading to impairment and manage to a 
level far below that critical point. This level of management, referred 
to as unacceptable impact, is clarified in the revised draft.
    The revised draft policies have strengthened commitment to 
appropriate use in parks. Managers have new guidance on determining 
what an appropriate or inappropriate use in a park is. These revised 
draft policies also acknowledge that what may be appropriate in one 
park may not be in another park.
    Finally, the revised draft policies recognize in a new way how much 
National Parks and the National Park experience means to Americans. The 
role of the park ranger as educator and protector is emphasized. The 
document demonstrates our commitment to the relevancy of National Parks 
and to the inspiration that they provide for our citizens, both today 
and in the future.
    In closing, I would like leave you with two quotations from 
distinguished Americans who cared deeply about our special places. The 
first is from President Theodore Roosevelt in 1912:

          The establishment of the National Park Service is justified 
        by considerations of good administration, of the value of 
        natural beauty as a National asset, and of the effectiveness of 
        outdoor life and recreation in the production of good 
        citizenship.

    The other quotation is from the author Wallace Stegner. In 1983, he 
wrote:

          National parks are the best idea we ever had. Absolutely 
        American, absolutely democratic, they reflect us at our best . 
        . . .

    We believe that the revised Management Policies will help the 
National Park Service to shine in its role as a leader of resource 
stewardship, as a leader in providing opportunities for visitor 
enjoyment, and as a model for other nations in how to protect special 
places unimpaired for the future.

    Senator Alexander. Thank you, Mr. Martin.
    We've been joined by Senator Akaka.
    Mr. Kiernan.

      STATEMENT OF TOM KIERNAN, PRESIDENT, NATIONAL PARKS 
                    CONSERVATION ASSOCIATION

    Mr. Kiernan. Well, thank you, Mr. Chairman and members of 
the subcommittee, for the invitation for the National Parks 
Conservation Association to testify today on the management 
policies for the Park Service. We are deeply grateful to the 
interest and engagement of this committee on this issue, on the 
policies as they were released for revision this past fall. 
Since 1919, the nonpartisan NPCA has been America's leading 
voice for the protection and enhancement of national parks, so 
it is wonderful today to be here to testify on behalf of our 
327,000 members throughout the country.
    When Denny Galvin testified this past fall, on behalf of 
NPCA, before the committee, that the nearly 90-year vision of 
the National Park Service mandate of protecting resources 
unimpaired was threatened, we were joined at that point in our 
concerns by a cross-section of the public--the Coalition of 
National Park Service Retirees, the National Council of 
Churches, the Outdoor Industry Association, just shy of 80,000 
Americans and members of this committee. And we're pleased that 
the committee and many of your bipartisan colleagues in both 
chambers spoke up and raised some questions about the substance 
and the process. I want to specifically acknowledge the 
leadership of Senator Thomas and Senator Alexander and Senator 
Salazar, Senator Akaka and the other members of your committee. 
It is with an enormous sense of relief and support that we are 
here today to testify and explain how your efforts and other 
efforts have paid off. Based on our initial analysis of the 
draft that was released earlier this week, it appears that the 
Park Service has acted on the concerns that were raised, has 
discarded some of the changes that did raise national concern, 
and has added some changes that we believe will garner national 
support.
    What began as a difficult process, we believe is ending up 
with a product that is both good for the national parks and 
good for the American public. What I would like to do now is 
give just a few examples of what we have seen in this draft 
just released and, hopefully, that will explain why we are so 
positive about this draft and I believe we've submitted some 
written testimony that goes into greater detail.
    In the October draft, last October, chapter one 
reinterpreted the Organic Act by deleting critical language 
that made clear that it is, in the long-term, protection that 
takes precedence, and that language has now been restored in 
the draft that was released earlier this week. The October 
draft of chapter one removed a paragraph from existing policy 
that further clarified the Organic Act's interpretation by 
referring to court cases and what they've done. They didn't 
restore all of the court language, but they did summarize, to 
say it has been a general interpretation of courts that 
conservation will be predominant. We very much appreciate the 
way that they have summarized those court cases in this draft.
    The October draft introduced concepts of appropriate use 
and unacceptable impacts that implied an inappropriate balance 
between preservation and recreation. Responding to those 
concerns in this draft released earlier this week, these 
concepts were further clarified in a way that we believe makes 
this document better than the existing policies by giving 
clearer guidance to superintendents. In the October draft, 
section 1.6 on Cooperative Conservation could be read to say 
that the Park Service must reach agreement with all communities 
before taking action. The new draft appropriately leaves 
cooperative conservation language in there, but includes a 
provision that if all else fails, the Park Service can take 
action to protect the park resources.
    And last, the air quality section, 4.7.1, of the October 
draft mistakenly, in our view, classified clean air as a value 
of the national parks and not as a resource. We're pleased to 
note that in the draft released this past Monday, it is noted 
as a resource, and some additional language was added to 
clarify the importance of clean air in our national parks.
    So, in closing, if the final policies that, I believe, the 
Park Service is shooting for in August, if they are as strong 
as the draft that was released earlier this week, this will be 
a significant success and a victory for our national parks and 
for the American public. This process is not yet complete, but 
we would like to give our strong thanks to this committee, to 
the Department of the Interior, the National Park Service and 
especially to Deputy Director Steve Martin for a much, much 
improved process and product. It is an honor to be here today 
with you and with Deputy Director Martin. Thank you.
    [The prepared statement of Mr. Kiernan follows:]

  Prepared Statement of Thomas C. Kiernan, President, National Parks 
                        Conservation Association

    Mr. Chairman, and Members of the Subcommittee, thank-you for 
inviting the National Parks Conservation Association to testify today 
regarding proposed changes to the Management Policies of the National 
Park System. We are extremely grateful to this subcommittee for the 
strong interest you have demonstrated in this important issue since the 
controversy over the initial draft rewrite began last August.
    Since 1919, the nonpartisan National Parks Conservation Association 
has been the leading voice of the American people in protecting and 
enhancing our National Park System for present and future generations. 
I am pleased to be here today on behalf of our 327,000 members 
nationwide, who visit and care deeply about our national parks.
    The Park Service issued its first set of management policies in 
1918--two years after enactment of the National Park Service Organic 
Act and one year before Stephen Mather, the first director of the Park 
Service, worked with his close friend Jonathan Sterling Yard to found 
NPCA. In creed that Secretary of Interior Franklin Lane articulated in 
1918--the core management policy for the NPS--endures today:

          First, that the national parks must be maintained in 
        absolutely unimpaired form for the use of future generations as 
        well as those of our time; second, that they are set apart for 
        the use, observation, health, and pleasure of the people; and 
        third, that the national interest must dictate all decisions 
        affecting public or private enterprise in the parks.

    When Deny Galvin testified before this subcommittee on behalf of 
NPCA last fall, this creed--the nearly 90-year vision for the Park 
Service's mandate to keep the national parks unimpaired for the 
enjoyment of future generations, was threatened. We testified that, if 
the sweeping changes proposed in October were ratified, the central 
purpose of the 1916 Organic Act, with its emphasis on protecting 
America's great treasures for future generations, could be lost. We 
were joined in those concerns by a broad cross section of the public 
and the Congress, including such groups as the Coalition of National 
Park Service Retirees, the Outdoor Industry Association, the National 
Council of Churches, and more than 50,000 citizens around our nation, 
as well as by many members of this subcommittee. We were pleased that 
this subcommittee and so many of your bipartisan colleagues in the 
House and Senate heard our concerns, and joined in questioning the need 
for and reasons behind the proposed changes. In particular, I 
gratefully acknowledge the efforts and leadership of Senators Thomas, 
Alexander, Salazar, Akaka, Bingaman, and Martinez in raising the 
importance of this issue.
    It is with an enormous sense of relief that I am here to testify 
today, to explain how fully your efforts appear to have paid off. Based 
on our initial analysis of the new draft the Park Service has just 
released, it appears that the Park Service has acted on those concerns 
and has discarded the broad changes that caused so much national 
concern. They heard the public, listened to Congress, and ultimately 
were empowered to take a fresh approach to this issue.
    What began as a dreadful process--one we hope never to see 
repeated--appears poised to produce a product that makes sense for the 
parks and for our grandchildren.

             BALANCING USE WITH PRESERVATION IN DAY-TO-DAY 
                      MANAGEMENT OF NATIONAL PARKS

    Over the 90-year history of the NPS, there has been much debate 
over whether the NPS is achieving the proper balance between uses of 
the parks for today, and conserving them unimpaired for future 
generations. These conflicts usually erupt over day-to-day management 
of particular parks, and the decisions that the NPS makes as it goes 
through periodic management planning. It is crucial to this discussion, 
however, to note that there is no credible debate over whether parks 
should be used by the American people, the debate centers on how the 
use occurs, and sometimes when or where.
    For the NPS professionals, conserving the parks unimpaired for 
future generations is synonymous with offering park visitors today a 
high quality experience. Scenic vistas should be clear, natural sounds 
should dominate over man-made noises, native wildlife should be 
abundant and visible for visitors, historic sites such as battlefields 
should look like they did when the historic events occurred, and park 
visitor facilities should not be located so as to disturb the natural 
scene or the cultural landscape.
    Viable alternatives to expanded use and commercial development in 
parks should be provided outside the parks, on other public lands, or 
in gateway communities. Natural and cultural resources of the units of 
the National Park System must be maintained and in some cases improved. 
Preservation is the key to continued success of the NPS in fulfilling 
its statutory mandate, and also to sustaining the core destinations 
that fuel the tourism industry.
    The management policies are central to the Park Service's ability 
to fulfill its mandate. They fill in the details not addressed by 
Congress in the many laws governing the parks. Management policies 
define what constitutes impairment of park resources and provide 
guidance on how to manage specific park resources, such as 
archeological relics, or how to manage certain land designations, such 
as wilderness. They are as fundamental to the protection of the 
national parks as the Organic Act, itself.
    Now that the revision process is poised to conclude while doing no 
harm, what is needed is for the broad constituency of interests that 
are engaged with the National Park Service--recreation, tourism, 
gateway communities, conservation, preservation, and regular ``good 
citizens''--to step up their support for their national parks as they 
are, and as they are intended to be, preserved unimpaired for future 
generations to enjoy. The national interest must prevail if our 
national parks are to flourish in the future.

         PROPOSED REVISIONS AND THE PROCESS FOR ACHIEVING THEM

    Although we are pleased with the substantive direction the 
revisions to the management policies appear to be taking, it is worth 
noting that the manner in which this rewrite was launched should never 
be repeated. The two central lessons of the last eight months are that 
the Park Service's management policies should not be re-opened lightly, 
and that the American people truly do care deeply about the long-term 
protection for these American treasures.
    In the future, the management policies should only be revised when 
there is substantive reason to do so, based on the longstanding 
criteria for such revisions. It would be unfortunate if, after nearly a 
century, every time political changes occur the management policies are 
revised. This would be enormously disruptive to the Park Service, would 
politicize management of the national parks, and would be a disservice 
to the special place national parks occupy in our society.
    We are heartened that political levels of the Department appear to 
have realized that Mr. Hoffman's initial draft, and even the subsequent 
draft formally released in October, were mistakes. We were extremely 
pleased to that as the review progressed, the Park Service was given 
complete control of the rewrite process, with very positive results. We 
expect this to continue, and we support the Department's full faith in 
the capable and dedicated professionals and leaders at the Park 
Service. With the support of the Department, the Park Service will be 
able to finalize a document at least as protective of the parks as the 
one before us today.
    The draft we are discussing today has, at least preliminarily, our 
support. We look forward to learning the comments of Park Service 
professionals over the course of the coming weeks and we intend to urge 
anyone who commented on the earlier draft to send their reactions to 
the Park Service while the new document is being made available on the 
Park Service website. We continue to believe public comment is 
important on this draft.

   STATUS OF SIGNIFICANT CONCERNS RAISED REGARDING PROPOSED REVISIONS

    When we testified before this committee on February 15 of this 
year, we highlighted a number of significant concerns with the October 
draft. Subsequently, NPCA submitted an extensive package of written 
comments to the Park Service that included a legal analysis of the 
impairment standard under the Organic Act and our interpretation of the 
impact many of the proposed changes would have on the parks. We urged 
that the rewrite be scrapped and that the Park Service start over. In 
fact, this appears to be exactly what occurred, although perhaps not in 
the manner we contemplated. The fact that the Park Service was allowed 
to scrap both the Hoffman rewrite and the subsequent proposal that 
continued to reflect many of the policy pronouncements in that 
unfortunate draft appears to have made possible a complete redraft 
that, in some cases, actually improves over the 2001 product. Below is 
a summary of the primary issues of focus, which describes the earlier 
proposal and how the newly released draft handles these issues.
    Organic Act--Predominance of Resource Protection: The Hoffman and 
NPS October drafts of Chapter One reinterpreted the Organic Act by 
deleting critical language that made clear that while the national 
parks certainly are intended to be enjoyed, it is their long term 
protection that takes precedence. This language related to the 
predominance of resource protection--in contrast to the long history of 
conservation being the primary mission. The 2001 MPs explicitly stated 
that the Service's fundamental mandates were conservation and 
prevention of impairment to resources. The June draft restores that 
2001 language.
    Similarly, the Hoffman and October drafts Section 1.10 on ``An 
Enduring Message'' added language that again implied that the park has 
two equal missions, namely preventing impairment and providing 
enjoyment. The June draft removes that language, stating the mission to 
be resource protection.
    The Hoffman and October drafts of Chapter One removed a paragraph 
that further clarified the Organic Act's interpretation by referring to 
court cases that describe conservation as the primary mission of the 
National Park Service. The June draft does not restore this language, 
except to state that predominance of conservation over enjoyment is 
``how the courts have consistently interpreted the Organic Act.'' There 
is an argument that the management policies do not need to include 
references to the actual cases, as long as the policies' interpretation 
is consistent. We reluctantly agree, although it would have been nice, 
and certainly cause no harm, to include the more detailed 
clarification.
    There is one place in the June draft that still may provide some 
confusion as to the status of enjoyment as compared to conservation. 
Sec. 8.1.1 includes a misleading statement that the ``fundamental 
purpose'' of parks ``also includes providing for the enjoyment of park 
resources and values'' thus if read on its own it implies that the two 
purposes are equal. We acknowledge that this was simply quoting from 
Sec. 1.4.3 of the 2001 Policies. But the 2001 Policies, and now we 
believe that the June draft, both read in combination with the rest of 
the Sections or in their entireties explains that this--sentence does 
not mean that providing for ``enjoyment''--is a co-equal purpose with 
conservation. It is part of the purpose, but when there are conflicts, 
park resource protection prevails. However, unless this language is 
changed before the document becomes final, future Directors will have 
to remain vigilant, so that this clause cannot be singled out to be 
used to undermine the protections provided by the other, more specific 
sections of the policy.
    Appropriate Use and Unacceptable Impacts: The Hoffman and October 
draft introduced more detailed concepts of ``appropriate use'' and 
``unacceptable impacts'' that sought to ``balance'' resource 
preservation and visitor use, rather than keep preservation as the 
primary mission. It also promoted the use of ``mitigation'' of harm 
over removal of harm. We raised strong concerns that the draft was not, 
in fact, appropriately balanced, because it de-emphasized the primacy 
of resource protection when it comes to the long term protection of the 
parks. Both of these harmful changes have been removed from the new 
draft.
    Third Party Enforceability: We objected to the new provision that 
says that the policies do not create any enforceable benefit by a party 
in a suit against the United States. This provision remains in the June 
draft--one change we believe to be unfortunate. However, the policies 
can still be used as evidence in challenges to laws and regulations.
    Mandated vs Authorized Activities: The Hoffman and October drafts 
indicated that if a use is ``mandated'' rather than authorized, that 
use must be allowed as long as impacts are ``minimized.'' This would 
allow unacceptable impacts just as long as there was an effort made to 
reduce their effect. The new draft makes it clear that even if 
``mandated,'' uses must be managed to ensure that impacts are 
acceptable. The Hoffman and October drafts included a bureaucratically 
difficult procedure that would have to be followed before a use could 
be considered to cause impairment, essentially reversing the burden of 
proof. The June draft removed this unnecessary new language.
    The Hoffman and October drafts of Section 1.4.7 on decision making 
allowed the decision makers to take action to mitigate impacts to avoid 
impairment, which opened the door to allowing impairment as long as it 
can be argued that some other benefit made up for it. The June draft 
restores the language that requires the Service to eliminate the 
impairment.
    Inappropriate Delegation of Authority: Throughout the Hoffman and 
October drafts, the Park Service was instructed to employ 
``cooperation'' in the management of the parks. For example, in Sec. 
5.2.1, which addresses consultation related to cultural resource 
management, the Hoffman and October drafts inserted language on 
``cooperation'' in places that created the impression that 
superintendents must give outside parties equal standing to NPS in 
resolving issues, so that NPS is limited in its ability to make 
responsible management decisions unless consensus is achieved. The June 
draft removes the new wording and restores the 2001 language.
    In yet another example of where a change had been proposed in the 
Park Service's management authority, the Hoffman and October drafts had 
added language in the discussion on partnerships (Sec. 1.9) that called 
for ``consensus-based management.'' It raised the concern that the Park 
Service would cede to local interests its decision-making authorities 
and responsibilities required by law. The June draft removes the 
``consensus-based management'' language in its discussion of 
partnerships (now Sec. 1.10).
    Also in its discussion of cooperation in Section 1.6 (Cooperative 
Conservation Beyond Park Boundaries) the June draft specifies that the 
Service ``will not relinquish any of its authority'' when participating 
in a park network. In addition, the ability of the Park Service to use 
its authorities and resources to take action if cooperative efforts do 
not prevent unacceptable impacts to park resources is clarified.
    Inconsistency through Flexibility: Throughout the Hoffman and 
October drafts, the phrase, ``whenever practicable'' was inserted 
dozens of times. For example, in Sec. 4.1.5. (Restoration of Natural 
Systems), the phrase was added three times, making those requirements 
to restore ecosystems discretionary rather than required. A restoration 
requirement in section 4.2.1 was also made discretionary using the 
``whenever practicable'' modifier. The final draft removes the added 
``whenever practicable'' throughout the document. Furthermore, with 
respect to the Restoration of Natural Systems section, the June draft 
makes a significant improvement over the 2001 policies by inserting 
``restoration of natural visibility'' to its list of potential 
restoration efforts to consider.
    Another terminology change in the Hoffman and October drafts that 
had the unfortunately consequence of reducing the expectation for 
action was the substitution of the verbs ``strive'' or ``should'' for 
``will'' in a number of places. For example, the Hoffman and October 
drafts of Sec. 4.4.1 on the management of biological resources reduced 
the Park Service's requirement of ``will'' maintain biological 
resources (native plants and animals) to ``strive to'' maintain. The 
June draft restores the verb ``will'' throughout the document and in 
the management of biological resources section improves that language 
stating that the Service ``will successfully'' maintain those 
resources. (Emphasis added)
    The Hoffman and October drafts added a criterion for deciding when 
to restore native plants and animals that required consideration of 
restoration on ``enjoyment of park resources.'' The June draft includes 
new criteria, but it only mentions effects on ``park management and 
use.'' We feel this is still worrisome--we do not want to see species 
restoration prevented because a park ``user'' is afraid of interaction 
with predators, for example.

                 SPECIFIC RESOURCE PROTECTIONS RESTORED

    Water: The Hoffman and October drafts weakened the ``water rights'' 
provisions (Sec. 4.6.2) by adding language that required more 
cooperation and consultation in water rights negotiations. The June 
draft includes language that makes it clear that the Park Service must 
keep its own resource protection interests in conflict resolution.
    Air Quality: The Air Quality section (Sec. 4.7.1) was changed in 
the Hoffman and October drafts to improperly weaken the park protection 
duties in the Clean Air Act, create a complex, costly, and unworkable 
new obligation for NPS to assist states in the permitting of hundreds 
of new major sources of air pollution, and improperly interfere with 
effective communication between NPS and authorities responsible for 
permitting major polluting sources. The Clean Air section in the June 
draft retains all of the protections in the 2001 policies, removing the 
offending new provisions.
    Natural Sounds: The Hoffman and October drafts removed the 
protection of ``the atmosphere of peace and tranquility and natural 
soundscapes'' from the criteria for unacceptable impacts. In fact, 
soundscape protection was diminished throughout the entire document. 
The June draft restores that criteria and level of protection.
    Wilderness: The Hoffman and October drafts changed Chapter 6 
(wilderness Preservation and Management) to significantly reduce 
protection of wilderness areas. Among other objectionable changes, the 
new language removed the Park Service's mandate to inventory its lands 
for wilderness designation and forward the recommendation to Congress, 
as the wilderness Act requires. Also removed was the mandate to conduct 
these reviews in a timely manner, many of which are decades overdue. 
The June draft rejects this change, and instead makes only a slight 
amendment that allows lands deemed ``eligible'' (a term reasonably 
changed from ``suitable'') could be managed in a slightly less 
protective way than other wilderness categories, but that land must 
still be managed to maintain its eligible status. This is acceptable 
language.

Use of the Parks
    The Hoffman and October drafts of Chapter 8 on Park Uses set up a 
process to assess park uses in a way that made it much easier for 
higher impact uses to be found acceptable. The process switched the 
burden of proof from ensuring that resources are protected to assuming 
that the use is acceptable until it can be shown that it will cause a 
very high level of harm. As mentioned, it also removed the 
consideration of the use's effects on soundscapes. The June draft 
restores the soundscape criteria, and restores the correct burden of 
proof.
    The Hoffman and October drafts of the sections about recreational 
uses removed the requirement to analyze environmental effects before 
approval of a use, made visitor use plans, river use plans 
discretionary, and weakened backcountry management provisions. They 
also stripped away the ability to consider the impacts of motorized 
equipment on intangible park qualities and natural quiet, and removed 
the requirement that the ``least impacting'' equipment, vehicles and 
transportation systems be used. The June draft restores all these 
protections and mandates.
    ORVs: In the section 8.2.3.1 on motorized off-road vehicles (ORVs), 
the Hoffman and October drafts removed the references to the types of 
off-road vehicle impacts, including soil, vegetation, wildlife, 
cultural and visitor impacts, that are to be prevented, as well as 
reference to the ORV Executive Order. In the June draft, all of the 
objectionable deletions were restored to the 2001 policy language. 
Moreover, the section was even improved from the 2001 policies, by 
actually quoting regulatory provisions that implement the executive 
order that limit ORV routes and areas to National Recreation Areas, 
Seashores, Lakeshores, and Preserves.
    Airports: In addition to trying to mitigate or avoid harmful 
effects, the Hoffman and October drafts contained a mystifying new 
provision in Sec. 8.4.8 (Airports and Landing Sites) that instructed 
parks to cooperate with the Federal Aviation Administration on nearby 
private airports to achieve better opportunities for visitors to see 
and visit the parks. This language essentially would have required the 
Park Service to support construction of airports near park boundaries. 
Fortunately, this language has been removed in the June draft.
    Grazing: The Hoffman and October drafts changed the agricultural 
grazing provisions by inexplicably removing the need to show that 
grazing will not cause unacceptable impacts before permitting it, and 
removing the requirement to devise plans and many specific resource 
protection protocols. The June draft includes the requirement to 
eliminate unacceptable impacts, restores many specific resource 
protection requirements, and requires parks to show how resources would 
be conserved in a planning document, although not necessarily a 
separate plan. This is acceptable.
    Cell Towers: The June draft improves upon the 2001 policies by 
requiring park managers to consider the impact of towers on the setting 
and scenery of a park before approving a siting permit. It also 
requires that towers that are allowed be located where they will have 
the least impact on park resources and that their visual impact will be 
minimized.
    Park Facilities: In Chapter 9, the Hoffman and October drafts 
required all facilities to be managed to provide for visitor enjoyment, 
despite the fact that all of them are not meant for visitation. Also, 
Sec. 9.1.1.6 (sustainable Energy Design) changed a mandate to improve 
energy efficiency in new buildings to a discretionary duty. The June 
draft changes it back to a requirement.
    Sections on waste management energy management were slightly 
weakened by the Hoffman and October drafts, but the 2001 language was 
restored.

Conclusion
    Over the course of the coming three weeks, we intend to confer with 
as many current and retired national park professionals as possible, in 
order to ensure that they do not perceive problems with this draft that 
we have not recognized at this point. We are well aware that this draft 
is not yet final. In addition to being based on our rapid analysis of 
the draft the Park Service has just released, our testimony today is 
given in good faith based our conversations with Park Service 
professionals involved in the process. Although we continue to believe 
that this process need not have been launched in the first place, we 
are enormously encouraged that this new product looks very different 
from the one presented in October. We congratulate the Park Service for 
making such enormous progress and credit the Interior Department for 
supporting the Park Service in this rewrite. The question now will be 
whether the document that is finalized remains at least as protective 
as the one the Park Service has released this week.

    Senator Alexander. Senator Akaka.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I would 
like to have my full statement included in the record.
    Senator Alexander. It will be.
    Senator Akaka. Mr. Chairman, I am so glad to hear already 
from the two witnesses. In general, I believe that the latest 
revision is a significant improvement over the previous drafts 
and I am encouraged that the new policies--in general, I 
believe the latest revision is a significant improvement over 
the previous drafts and I am encouraged that the new policies 
contain one of the key provisions from 2001, that to the extent 
there is a conflict between conserving park resources and 
providing for enjoyment of them, that conservation be 
predominant. I have previously expressed my concern with what I 
viewed to be an overly political process that was used in the 
development of the first proposed revision. It is my 
understanding that the most recent revision was developed, for 
the most part, with career park service employees. While the 
new version is much improved over the initial revision, there 
are still a few areas primarily involving cultural resource 
issues that I hope can be clarified and improved before the 
policies are finalized.
    For example, the 2001 policies included a clear statement 
that, and I quote, ``Planning will always seek to avoid harm to 
cultural resources and consider the values of traditionally 
associated peoples.'' But that sentence was dropped from the 
2006 draft.
    For the most part, however, I am encouraged that the 2006 
policies have returned to, or in some areas improved upon, the 
2001 policies. I hope the events of the last year will 
reinforce the merits of allowing the professional career 
employees of the National Park Service and the public to fully 
participate in the planning process rather than allowing a few 
political employees to try and advance their ideological views.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Akaka follows:]

  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii

    Mr. Chairman, thank you for scheduling this hearing to 
review the National Park Service's revised draft of its 
management policies. In general, I believe the latest revision 
is a significant improvement over the previous drafts, and I am 
encouraged that the new policies have retained one of the key 
provisions from 2001, that to the extent there is a conflict 
between conserving park resources and providing for enjoyment 
of them, that conservation is to be predominant.
    I had previously expressed my concern with what I viewed to 
be an overly political process that was used in the development 
of the first proposed revision. It is my understanding that the 
most recent revision was developed, for the most part, with 
career Park Service employees.
    While the new version is much improved over the initial 
revision, there are still a few areas--primarily involving 
cultural resource issues--that I hope can be clarified and 
improved before the policies are finalized. For example, the 
2001 policies included a clear statement that ``planning will 
always seek to avoid harm to cultural resources, and consider 
the values of traditionally associated peoples.'' Similarly, it 
appears that clear direction in the 2001 policies to protect 
archeological resources has been changed to protecting those 
resources ``whenever practicable.''
    For the most part, however, I'm encouraged that the 2006 
policies have returned to or improved upon the 2001 policies. I 
hope the events of the last year will reinforce the merits of 
allowing the professional career employees of the National Park 
Service and the public to fully participate in the planning 
process, rather than allowing a few political employees to try 
and advance their ideological views.
    Mr. Chairman, I would like to welcome our two witnesses 
here this afternoon, and I look forward to hearing more about 
the new policies during the hearing. Thank you.

    Senator Alexander. Thank you, Senator Akaka. Now we will 
have some questions. We will each take 5 minutes and then we'll 
go back around, if anyone wants to do that.
    Let me start. Mr. Martin, how many National Park Service 
properties are there to manage?
    Mr. Martin. There are 390-plus affiliated areas and trails.
    Senator Alexander. And the various categories are generally 
parks; what are the other categories?
    Mr. Martin. We manage parks and monuments and lakeshores in 
a variety of areas, but all under one inclusive goal, which is 
the high level of protection.
    Senator Alexander. These are management policies for the 
managers of all those areas?
    Mr. Martin. Right.
    Senator Alexander. And there is--they vary widely. Some of 
them are wilderness areas, some of them are far-from-wilderness 
areas.
    Mr. Martin. Right.
    Senator Alexander. I'm just trying to create a sense of the 
importance of these management policies. You've been at various 
levels within the National Park Service. As a manager of a 
property, how did you use the management policies and how 
important were they to you in terms of making decisions about 
conservation, about air quality, about noise pollution? Can you 
give us an example or two of how they might be used in everyday 
management?
    Mr. Martin. They're definitely brought out when you have a 
complex situation or a contentious situation or where you are 
just looking for guidance in areas of park management that 
you're not familiar with. Our superintendents and managers have 
a broad array of responsibilities and they serve that purpose. 
I think that what we try to do--because, as you pointed out, 
we're everything from Langston Golf Course, here in Washington, 
DC, to the Gates of the Arctic, north of the Arctic Circle. 
What these do is they provide a lot of direct guidance, but 
they also provide process to think through tough decisions, and 
to be able to help clarify what the key purposes are for the 
area that you are in and how to best set that high standard for 
management.
    Senator Alexander. Well, for example--can you think of an 
example or can you, Mr. Kiernan, take the basic statement that 
we've all cited, where the Secretary says or repeats what seems 
to have been the basic idea ever since the first Federal law 
about national parks, when there is a conflict between the 
protection of resources and use, conservation will be 
predominant, and give me an example of some instance in the 
last few years of how a change in that would make a difference?
    Mr. Martin. I think that, of course, we like it the way 
it's stated, but it's something where the fundamental goal of 
the Park Service is passing the resources on unimpaired. As an 
example, if you were thinking about allowing a new trail system 
in a park like Yellowstone--and this is hypothetical--you would 
evaluate what impacts that might have on the resources. And if 
it was something that was compatible with the legislative and 
the management goals of the park, and you did the research and 
you found that this was an appropriate use, you could allow 
that. But if there was uncertainty or you felt that somehow the 
resources would not be protected, then you would say, this is 
something that we just can't do. And we feel that is laid out 
more clearly in this document than it has been.
    Senator Alexander. If the Senators don't mind, I'm going to 
ask one more question. The clean air was another concern that I 
expressed about these management policies. I live near an area 
in Tennessee, the Great Smoky Mountains National Park, which 
you visited recently, which is the most polluted national park 
in America in terms of air pollution. The park has a--the Park 
Service has had the authority to weigh in on air pollution when 
permits for new coal-fired power plants are built. According to 
the Department of Energy, there are 129 new coal-fired power 
plants in various stages of planning or development. Some of 
these are bound to affect visibility in the parks, such as the 
Great Smoky Mountains National Park. Does the Park Service, 
under these management policies, expect to weigh in on giving 
its opinion about whether the creation of these new plants will 
adversely affect our National Park System?
    Mr. Martin. The answer is yes, We would weigh in, and we 
would hope to work with potential permitees and others to 
ensure that the construction of plants and the operation of 
plants does not hurt the national parks. And we have a very 
important role in that, in getting the information out there 
and solutions out there as well.
    Senator Alexander. Thank you.
    Senator Salazar.
    Senator Salazar. Thank you very much for both Mr. Martin 
and for Mr. Kiernan. My question is whether or not, at this 
point in time, there should be additional public review and 
input into the policies as they were announced yesterday? My 
thought is simply this: there has been a dramatic change, and I 
think a positive change, in what the National Park Service is 
proposing here. I know we're getting an opportunity now to 
provide some response to you and you've mentioned, Mr. Martin, 
that there were actually--you posted the rules on the website, 
allowing the public then to review them and provide comment. Is 
there more that we ought to do to allow these proposed rules to 
receive additional public scrutiny or are you comfortable with 
where we are and what we're doing at this point in time?
    Mr. Kiernan. From our prospective, we are comfortable with 
the process that the Park Service and the Department have laid 
out. We do think it is important for the Park Service employees 
to spend the coming 21 days reading through this and seeing if 
there are any details or subtleties between the chapters, and 
if they have, from their management perspective, any questions 
or confusion. So we think this next phase is an important one. 
We also appreciate the Park Service's willingness to post it on 
the website so that those Americans that have been involved in 
this process do have a chance to see it and can contribute 
their comments. But the totality of those two processes, we 
think, is appropriate. Also, given that what we believe is in 
this document is--or what we know is there is a lot of the 2001 
policies, the current policies, with a number of enhancements, 
improvements, adjustments, additions, but a lot of it is the 
current set of policies. So I think this is an appropriate 
public process from here forward before they finalize it.
    Senator Alexander. Thank you, Mr. Kiernan.
    Mr. Martin.
    Mr. Martin. I would agree with that. It was important to us 
to certainly get it back out to the employees. It is just like 
Senator Akaka pointed out, there will be some places where 
perhaps we moved things or things have dropped out that we need 
to make adjustments to. We felt it was important to have it 
available for the public, so they could read it. And like with 
all of our process, we certainly will listen to comments that 
come in over the next few weeks as well. We hope that this 
dialog that we have can continue, not just for the next few 
weeks but for the future, as we work through a lot of really 
complex issues.
    Senator Salazar. Thank you very much.
    Mr. Martin, this question is for you. In terms of the non-
impairment standard, I think that was what was driving the 
concerns and the echoes of fear from so many people around the 
country with respect to our national treasures. I want you to 
describe to us how, in reality, the non-impairment standard 
will be applied, if, in fact, we have a conflict between the 
conservation purpose and some other use. How will the National 
Park Service process that conflict?
    Mr. Martin. It will depend on the nature of the conflict. 
If it is something of significance, obviously we'll have a 
planning process, a need for process that would disclose that, 
discuss it, analyze it scientifically. I think on a day-to-day 
basis, it allows superintendents an opportunity to deploy the 
resources to make sure that the ongoing activities within park 
are future activities, and as people come in with new ideas, 
they have a methodology to consider that.
    I think that it is important to note that what this does 
do, too, is it allows for the embracing of appropriate uses. I 
think that the thing that makes that a key to have that high-
level enjoyment standard is knowing that there are rules and 
there are bounds to that that are well communicated so people 
understand what the right uses are. And I think it will make 
managers' jobs easier in the parks.
    Mr. Kiernan. Senator, if I could add something. This is one 
of the areas that we're quite pleased with this draft, the 
concept that was interjected--inserted on unacceptable impact. 
That is, as we see it, a methodological enhancement that prior 
to impairment--obviously, the standard is impairment, but if a 
superintendent is seeing some unacceptable impacts that may be 
heading toward impairment, it allows the superintendent to take 
some management action to head things off at the pass so that 
we don't butt all the way up against impairment and then, if 
you will, have to have the park overreact in a very strong way. 
They are able to manage it as there is increasing impact, to 
the point at which, if there is an unacceptable impact, the 
superintendent can take action and this is before impairment 
occurs. So this is, we think, a much improved process that Mr. 
Martin has added to this and we applaud it.
    Senator Salazar. I appreciate those responses. One final 
question, if I may, and that is, we seem to have come a long 
way to what appears to be a happy consensus here on how we move 
forward with national parks management policies.
    Mr. Martin, do you anticipate that there will be a need to 
change or review these policies in some formal way on down the 
road, 3, 4, 5, 10 years? What is the future of these national 
management policies for parks?
    Mr. Martin. I think that the answer is yes, we will need to 
continue to evolve our management policies and review them. 
Hopefully, we'll get the next process off to a little bit 
better start. I think that one of the reasons we wanted to put 
the ten key principles in this document is to say that it is 
good to look at how you're doing business, but you have to do 
it in a way that it is open and doesn't cause the consternation 
that the way we started this last process did. And I think 
that--so the answer is yes, we need to, but hopefully we've 
learned a lot from how to do that to make it better.
    Senator Salazar. Well, I appreciate that response. And, 
again, Chairman Thomas and Senator Akaka, Senator Alexander and 
the members of this committee appreciate the work we have gone 
through and the final result we appear to be getting to very 
quickly. Thank you.
    Senator Thomas [presiding]. Thank you for your 
presentations. I'm sorry, I was waiting for the vote and we 
finally got it. But I had read your presentations and I thank 
you both very much.
    Mr. Director, how do these new policies affect wilderness 
uses and the management of wilderness areas?
    Mr. Martin. I think largely it's unchanged. We have made a 
couple of changes in how we manage lands that have not been--
that are eligible for wilderness that have not been recommended 
by the director for inclusion in formal wilderness. And those 
lands, we would maintain their eligibility, but we would have a 
little--which means that we wouldn't construct roads in them, 
we wouldn't build new facilities, but we would have a little 
more flexibility in how we manage those lands administratively, 
like being able to use some--like if you have a windfall, wind 
blowing down trees, you could use chain saws to clear the 
trails, those kind of things. But largely our management of 
wilderness is the same.
    Senator Thomas. Mr. Kiernan, what would you say are the 
most substantive changes brought about by this management 
policy?
    Mr. Kiernan. What first comes to mind, comparing back to 
the October draft, obviously was the re-insertion of chapter 
one, the fundamentals, going back to the 2001 policies, so I 
want to recognize that. When you compare it to the 2001 
policies, some improvements have been made to the methodology 
that I mentioned a few minutes ago on the insertion of 
unacceptable impacts. We think that is an enhancement. We see 
some other enhancements on cell towers and some other places 
where it is clearer how the park and the superintendent should 
manage an issue. We're also pleased with the final inclusion of 
the concept of cooperative conservation. It is appropriately 
defined in here. We do see a tone shift, that we think is a 
welcomed one, to make sure that superintendents are encouraged 
to reach out and engage with the community and engage with 
stakeholders. We think the way that is defined is healthy and 
appropriate but it still maintains that the superintendent is 
responsible for protecting the resources and that conservation 
will be predominant. We think it is the right balance.
    Senator Thomas. OK. Thank you, Steve. As we all know, there 
is some discussion and decisions being made with respect to 
snow machines in the parks. Does this management policy grant 
any new authority to restrict snow machines, or what is the 
situation with regard to the future use of snow machines?
    Mr. Martin. One of the premises of the document is all of 
the laws, all of the regulations, and the executive orders that 
have pertained to the use of snow machines remain the same. 
However, as we analyze existing snow machine use or potential 
snow machine use, you would subject it to make sure that if it 
was allowed--and again, we have many parks where it is--in a 
number of parks, that that use was consistent with passing the 
parks on to future generations unimpaired. So that's the key 
analysis that will take place. It was there before but I think 
as we look at--and as an example, the Yellowstone situation, I 
think that if we had these policies in place, we might have 
caught some of those levels of use that became too high, 
because we would have had--the question would have been asked, 
is this use too much? And I think that now, as we go back to 
analyze snowmobile use in our supplemental EIS, we'll look at 
that. If it can be allowed at appropriate levels that don't 
impact resources, then certainly that will be one of the 
alternatives that is considered.
    Senator Thomas. That is appropriate, but while they are 
still being used, they're not saying they can't be there.
    Mr. Martin. Right.
    Senator Thomas. So there is some implication from some 
reactions that that would be the case. So accessibility to the 
park on snow machines is part of the purpose of the park and so 
on, if it is done in a proper way.
    One final question, Steve. You mentioned the communities. 
One of the keys to the operations, of course, is to have 
communications and so on with the gateway communities; is this 
regulation dealing more with that process?
    Mr. Martin. It definitely talks a lot about the importance 
of engaging the communities, engaging the States and counties. 
Actually, we added some language on making sure that we engage 
needed peoples and others in our activities because of the 
special relationship parks have with them. So the answer is 
yes, it really puts a focus on that, but we retain the key 
responsibility. When it comes down to that final call, that's 
our responsibility. But, absolutely, that cooperation is 
important.
    Senator Thomas. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman, Mr. 
Martin. Mr. Chairman, Mr. Martin, I would like to ask the 
question I mentioned in my opening statements. Section 5.2 of 
the 2001 policies dealt with planning requirements. It included 
a provision that, ``planning will always seek to avoid harm to 
cultural resources and consider the values of traditionally 
associated groups.'' The comments in the 2006 draft are that 
the provision was deleted because it is addressed in section 2; 
however, we have not been able to find a similar statement in 
that section. This is a very important issue in my State of 
Hawaii and I wondered if you could assure me that the Park 
Service still believes that park planning should always seek to 
avoid harm to cultural resources and consider the values of 
traditionally associated groups, and if so, whether you would 
consider including that statement in the final version of the 
management policies.
    Mr. Martin. The answer is yes to all your concerns. We have 
added considerable new language on that. Believe me, as soon as 
we are gone from here, we will evaluate that. It was meant to 
be in there and we'll either find it or we'll add something 
like that, because that was the intent.
    Senator Akaka. Thank you for that, Mr. Martin. My final 
question--I have another that I will place in the record.
    My question concerns the role of what the Park Service 
describes as ``traditionally associated groups'' in park 
management. In Hawaii, virtually all of the national parks are 
also sites of tremendous cultural and religious significance to 
native Hawaiians. Will the new policies change the way in which 
the Park Service works with native Hawaiians and other 
``traditionally associated groups'' in managing national parks?
    Mr. Martin. I think that our goal--I know that our goal is 
that this document strengthen that relationship. One of the 
many comments we received, not only from you, but from some of 
the other American Indian groups and associates peoples, was 
that we needed to strengthen that part of the document and we 
made an attempt to do so. So we really hope that this document 
will increase our ability to understand and work with the 
groups that find the parks so important from a cultural 
standpoint.
    Senator Akaka. Thank you very much, Mr. Martin. I have 
another question that I will place in the record, Mr. Chairman.
    Senator Thomas. Thank you. Mr. Martin, I know this is not 
oriented specifically toward that, but does this have any 
impact particularly--we've been reading a lot lately about the 
budget and the difficulties, the financing and so on; does this 
deal with that particularly?
    Mr. Martin. It does, in the general sense, in that we talk 
a lot about increasing the Park Service's ability in business 
management, accountability, and efficiency. We also talk in the 
document about the importance of when we construct facilities, 
making sure that we've considered maintenance costs, that we've 
considered making them as sustainable and durable as possible. 
And so, I think--and it also talks about the development of our 
work force for the challenges, the new challenges and 
complexities. So, it doesn't directly talk about dollars, but 
it certainly talks about work force and programs that will be 
efficient and effective and promote sustainability.
    Senator Thomas. This is not an appropriations thing, but I 
know that is the issue. Well, gentlemen, I want to thank you 
both for the work that has gone into this. I know that, No. 1, 
it's difficult to come up with something and get the reactions 
and then do some of the things to it. And as you know, the 
first draft brought some reactions. I appreciate very much the 
effort both of you have done to make some changes and to make 
this thing work. I think it's very key that we have a statement 
that defines the goals and the purpose of parks. And then, of 
course, everyone has a little different way of how you 
interpret some of those things, obviously, but we have to 
continue to support the purpose for the establishment of these 
resources. So, thank you very much and we've gotten through 
very quickly and I appreciate that.
    Is there going to be more comment on this now, at this 
point? What is the status of it?
    Mr. Martin. We hope to have it finalized in August and we 
will--it's out to our employees, so we will review their 
comments and I'm sure that we will get points of clarification 
and we really want to make these the best we possibly can. It 
is also on our website for the public, and we anticipate that 
we'll probably get some comments from the public as well. We 
will certainly consider those before we finalize it.
    Senator Thomas. Thank you, gentlemen. Thank you very much. 
We appreciate it.
    [Whereupon, at 3:15 p.m., the hearing was adjourned.]

    [The following statement was received for the record:]

          Statement of Maureen A. Healey, Executive Director, 
                Personal Watercraft Industry Association

    The Personal Watercraft Industry Association (PWIA) and its member 
companies, American Honda Motor Co., Inc., Bombardier Recreational 
Products, Inc., Kawasaki Motors Corp., U.S.A., and Yamaha Motor 
Corporation, U.S.A. (collectively, ``PWC Companies'') submit these 
comments in response to the hearing the subcommittee held on June 20, 
2006 to discuss the National Park Service's (NPS) updated draft to the 
policies (``Draft Policies'') that guide the management of the national 
park system. The PWC Companies manufacture and/or distribute personal 
watercraft (PWC). PWIA and the PWC Companies are dedicated to ensuring 
that PWC use continues, on fair and nondiscriminatory terms, in units 
of the national park system that permit other forms of motorized 
boating.
    The PWC industry commends the National Park Service for updating 
its policies. PWIA is concerned, however, that the revised Draft 
Policies might be interpreted by park unit superintendents as authority 
to prohibit visitor access to the national parks without the backing of 
a sound scientific analysis. Any decisions that impact the public's use 
of the national parks should always be based on the best available 
science.
    Upon being asked by Senator Salazar at the June 20 hearing, Deputy 
Director Martin explained that when conservation and access come to a 
conflict, decisions will be based on science through a NEPA analysis. 
We hope Deputy Director Martin's statement underscores the protocol by 
which conflicts will be resolved. When making these decisions, it is 
important to use the most current scientific knowledge.
    PWIA is particularly interested in NPS management policies because 
few industries have been so profoundly impacted by NPS decisions based 
on outdated science and personal bias as the PWC industry. As a result, 
public access has been greatly impaired.
    In 2000, as a result of a NPS system-wide regulation, PWC use was 
prohibited in all NPS units with the exception of 21 designated units 
that continued to allow PWC use for a two-year grace period. During 
this grace period, each unit was instructed to conduct a full NEPA 
analysis to determine scientifically what impact, if any, PWC had on 
the local environment. A no-action decision by superintendents in these 
21 park units would default to a PWC ban after the two-year grace 
period expired. As the chart below indicates, virtually no park unit 
successfully completed the NEPA environmental review and subsequent 
rulemaking in time to publish a final rule before the grace period 
expired in 2002. In fact, today, in 2006, there are still five park 
units that languish in the process. An economic impact study released 
in February 2006 estimates that the PWC bans in the national parks have 
cost the U.S. economy upwards of $2.7 billion in up- and down-stream 
losses. In fact, for every year these bans continue, these restrictions 
cost our economy another $567 million. The study also estimates that at 
least 3,300 U.S. jobs have been lost as a result of the NPS ban on 
personal watercraft.
    The toll of these PWC bans stretch far beyond the plants where PWC 
are manufactured by hard-working Americans. Countless small business 
have been negatively impacted because of the steep decline in sales 
associated with the rumors of a ``national ban'' and the contagion 
effect it had on state and locally-managed waterways. PWC dealerships, 
repair shops, rental businesses, marine accessories retailers, hotels, 
and marinas have all felt the hit. Considering PWC sales fell from a 
peak of roughly 200,000 units in 1995 to approximately 80,000 in 2005, 
this is understandable. A 60 percent decline in sales that tracks the 
NPS ban history is in no way coincidental, despite what our detractors 
may claim. It is indeed the most profound, correlating reason.
    The adverse economic impact caused by PWC bans amplifies PWIA's 
grave concern that bias can have a devastating impact. The final rule 
issued in 2000 that established the grace period for 21 park units and 
immediately banned PWC in the remaining units was based on outdated 
science. It was the result of a lawsuit brought by an anti-boating 
group under the guise of environmentalism and it declared PWC guilty 
until proven innocent. This is why PWIA consistently stresses the need 
to balance the competing demands. The PWC rule is a perfect case study 
because today, with 15 NEPA environmental assessment studies having 
been completed since the grace period expired in 2002, all 15 
scientific studies determined that PWC present no unique impact on the 
environment and recommend they be allowed (with some limitations in 
particular park units) where other motorized boats are allowed. The PWC 
industry has been patient throughout the process, despite growing 
increasingly frustrated with the delays, because the findings of each 
and every one of these scientific studies confirm what PWIA has 
asserted for years; that modern personal watercraft are among the most 
environmentally-friendly motorized boats on the water.
    Fortunately, 11 of the 15 park units that have completed the 
environmental assessment portion of the NEPA analysis, have also 
completed the rulemaking and published a final rule. PWC use has been 
restored in all 11 park units. Unfortunately, however, while these park 
units are reopened it took years to debunk the baseless allegations 
that caused the bans in the first place. Cape Lookout National Seashore 
in North Carolina, for instance, did not issue a final rule until six 
full years after the final rule was published in 2000.

                                                                          CHART
   Progress made by the 16 park units of the 21 that indicated they would conduct a NEPA analysis of PWC use after the final rule in 2000 was issued.
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                               Draft EA to Final    Service-Wide Rule to
-----------------------------------------------------------------------------------------------------------------------------------   Final Local Rule
                                    Draft EA/EIS         Draft Rule       # of       Final Rule      # of                          ---------------------
           Park Unit                  Released            Released        Days        Released       Days     Days   Months  Years   Days  Months  Years
--------------------------------------------------------------------------------------------------------------------------------------------------------
Assateauge.....................  April 1, 2002.....  May 6, 2002.......    36    May 30, 2003.....   389      425     14      1.2    1135   38      3.1
Lake Mead......................  April 24, 2002....  September 5, 2002.   134    April 9, 2003....   216      350     12      1.0    1084   36      2.9
Lake Powell....................  September 14, 2002  January 17, 2003..   125    September 26,       252      377     13      1.0    1254   42      3.4
                                                                                  2003.
Amistad........................  April 8, 2003.....  October 22, 2003..   197    May 27, 2004.....   217      414     14      1.1    1497   50      4.1
Lake Meredith..................  March 10, 2003....  December 12, 2003.   275    May 27, 2004.....   166      441     15      1.2    1497   50      4.1
Lake Roosevelt.................  April 29, 2003....  February 6, 2004..   283    June 25, 2004....   139      422     14      1.2    1526   51      4.2
Chickasaw......................  March 10, 2003....  March 25, 2004....   380    September 2, 2004   161      541     18      1.5    1595   53      4.4
Bighorn Canyon.................  June 11, 2003.....  May 5, 2004.......   287    June 1, 2005.....   392      679     23      1.9    1867   62      5.1
Fire Island....................  September 5, 2002.  August 23, 2004...   352    July 6, 2005.....   421      773     26      2.1    1902   63      5.2
Pictured Rocks.................  July 22, 2002.....  November 15, 2004.   846    October 27, 2005.   346     1192     40      3.3    2015   67      5.5
Gulf Islands...................  April 19, 2004....  March 17, 2005....   332    May 4, 2006......   413      745     25      2.0    2204   74      6.0
Cape Lookout...................  January 24, 2005..  December 29, 2005.   339
Gateway........................  May 13, 2003......  February 24, 2006.   918
Curecanti......................  June 13, 2003.....  March 17, 2006....   970
Big Thicket....................  July 24, 2002.....  ???
Padre Island...................  February 13, 2006.  ???
                                ------------------------------------------------------------------------------------------------------------------------
    Average....................                                           391                        282.9    578.1   19.3    1.6    1598   53      4.4
                                ========================================================================================================================
--------------------------------------------------------------------------------------------------------------------------------------------------------

                   THE CASE OF BISCAYNE NATIONAL PARK

    Park superintendents yield a great deal of autonomy and, as a 
result, personal bias can come into play. Therefore, the way in which 
the new Draft Policies are interpreted by each superintendent will have 
a huge impact on dictating what recreational uses will be allowed in a 
particular park. PWIA is currently engaged in a vigorous debate about 
PWC use in Biscayne National Park in Miami, FL as a result of a 
previous superintendent with a bias against PWC.
    Biscayne National Park is covered almost entirely by water, and 
while some of it is very shallow and contains sensitive ecosystems that 
perhaps should not be accessed by motorboats (a decision that should be 
made only by scientific analysis), the vast majority of Biscayne is 
open ocean that is very inviting for boats of all kind. In fact, all 
other types of boats are allowed in Biscayne National Park, only PWC 
use is restricted. When the NPS system-wide PWC rule was issued in 
2000, Biscayne National Park was not on the list of 21 units that had a 
two-year grace period, therefore PWC were immediately banned. The park 
superintendent at that time indicated no intent to contest the decision 
with the National Park-Service on behalf of the many park visitors who 
enjoyed the park by PWC.
    As part of a coalition of local businesses and PWC owners, PWIA 
filed a petition in 2004 and again in 2006 encouraging the National 
Park Service to re-examine the arbitrary nature of the Biscayne 
National Park ban, particularly in light of the 15 other environmental 
assessments that show PWC present no unique impact on the environment. 
These environmental assessments represent the best available, most 
recent studies measuring PWC impact. An owner of a Miami-area PWC 
dealership testified before a House subcommittee in March 2006 and 
explained that his personal watercraft business suffered a 75 percent 
decline in sales as a result of the ban at Biscayne National Park.
    The 2004 petition was denied with very little justification other 
than a brief explanation that Biscayne National Park was intentionally 
left off the list of park units with a grace period and therefore it 
had been decided that PWC use should not be allowed at Biscayne 
National Park. In following, PWIA filed a Freedom of Information Act 
(FOIA) request for all items and materials related to the decision to 
deny the petition and perpetuate the ban. Meanwhile, a Department of 
Interior Assistant Secretary testified before Congress in 2005 and 
confirmed that there has never been any scientific study conducted at 
Biscayne National Park to justify this ban.
    The FOIA request resulted in very little justification for the 2004 
petition denial. It is worth noting that the petition did not request 
immediate and unfettered PWC access to the Park. To the contrary, it 
requested a fair and equitable decision process by evaluating PWC use 
and impact through a NEPA analysis. The minimal results of the FOIA 
request led to a new petition being submitted in February 2006. As we 
approach August, nearly six months later, we still have not received a 
response to this petition despite a NPS official's testimony before a 
House subcommittee in March that the response was nearly complete and 
would be released in the ``next ten days.''
    It is also worth noting that while 21 park units were listed in the 
2000 Final Rule to remain open to PWC use during the grace period, the 
Final Rule explicitly states that any other park may commence a NEPA 
analysis at any time. The Final Rule does not prohibit any park unit 
from revaluating the PWC ban at the local level.
    PWIA is particularly dismayed that the NPS has ignored verbal and 
written requests from several Members of Congress to begin a NEPA 
analysis at Biscayne National Park. By engaging this process, all 
involved could be confident that sound science would make the final 
decision and put the debate to rest.
    Furthermore, the Atlantic Intra-Coastal Waterway (ICW)--a ``highway 
for boats'' that runs much of the eastern seaboard--traverses 
approximately 17 miles through Biscayne National Park. Boats of all 
shapes and sizes use this waterway to travel from Key Biscayne in 
southern Miami to Key Largo and farther south into the Florida Keys. 
The United States Coast Guard (USCG) has authority over the ICW, yet 
the NPS insists its PWC ban in Biscayne National Park also applies to 
the USCG-controlled ICW. At present, a PWC operator must leave the 
safety of the ICW and travel approximately 10 miles into the open 
Atlantic Ocean around an invisible park boundary to return to the ICW 
in Key Largo. Since PWC are small boats of approximately 12-15 feet in 
length, this journey can be very dangerous.
    PWIA at a minimum, and in the interest of boater safety, PWC 
operators should be allowed to traverse Biscayne National Park thought 
the Intra-Coastal Waterway. It is particularly troubling in the case of 
Biscayne National Park that it has been virtually impossible for PWC 
operators to have their day in court, where the issue of a PWC ban can 
be reopened and reevaluated.

                             PWC TECHNOLOGY

    Personal watercraft and the people who own them have changed 
dramatically over the last several years. Today's vessels are 
overwhelmingly sit-down models (99 percent) that carry two and three 
people including the operator. Since 1998, PWC emissions have been 
reduced by up to 90 percent and sound has been reduced by 70 percent. 
The environmentally-friendly four-stroke engine models accounted for a 
vast majority (80 percent) of sales last year.
    Personal watercraft have always complied with all applicable 
federal and state emissions and sound requirements. In fact, 
manufacturers met, and in some cases exceeded, the EPA's 2006 standards 
years ahead of schedule.
    As technology has improved, manufacturers have seen a change in 
their customer base too. The typical PWC buyer today is over 40 years 
old and is an experienced boater. This comes at no surprise, 
considering PWC today retail for approximately $10,000 per boat.

                               CONCLUSION

    PWIA recognizes the complexities in balancing all of the competing 
needs and demands on the national park system. That is positive proof 
that the final Draft Policies must be very clear in their 
interpretation. Otherwise, what could result is visitor access being 
denied based on a biased judgment from a park superintendent and 
manager. Deputy Director Martin testified that a NEPA analysis would be 
the instrument used to resolve conflicts between conservation and 
access. We hope this is boldly expressed in the final policy.
    It is PWIA's belief that reasonably regulated PWC use should be 
permitted wherever other forms of motorized boating are allowed, and we 
hope that the final management policies will assist in allowing that to 
happen.
    PWIA stands ready to assist the NPS on issues of mutual interest, 
as evidenced by the recently announced boating safety partnership at 
Lake Mead National Recreation Area. If you have any questions or would 
like to further discuss this important matter, please contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5055585c5158447d484d4a545c13524f5a">[email&#160;protected]</a>, or 202-737-9778.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
